FEC -- Audit of the Data Entry Contracts:  Executive Summary
Federal Election Commission
Office of Inspector General -- Audit Report
Audit of the Data Entry Contracts:  Executive Summary
September 30, 1994
If you require the entire printed version of the audit report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
The Federal Election Commission is responsible for collecting and
maintaining reports filed under the Federal Election Campaign Act
(FECA).  As part of this responsibility, the FEC contracts a
private firm to convert data contained on coded documents, as
filed by political committees and others, into a prescribed
machine readable format (magnetic tape).  The Office of Inspector
General conducted an audit of the Data Systems Development
Division, Data Entry Contract SOL 90-1 and solicitation for the
new contract, RFP 94-1.  The audit disclosed that the
solicitation process of Data Entry Contracts SOL 90-1 and RFP
94-1 was in compliance with the Federal Acquisition Regulation
System (FAR).  In addition, the results of the audit revealed
that the contractor had adequately adhered with the terms and
conditions of Data Entry Contract SOL 90-1.  Lastly, the OIG
concluded that the internal controls are adequate to ensure the
invoices received from the contractor for payment are accurate
and are processed in accordance with the Prompt Payment Act.